\

D. Conn.
09-cr-267
Thompson, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 25 th day of June, two thousand twenty.
Present:
Jose A. Cabranes,
Raymond J. Lohier, Jr.,
Steven J. Menashi,
Circuit Judges.
United States of America,
Appellee,
19-3870

v.
Wilson A. Pena, AKA Wilson A. Pena-Villafana,
AKA Twin, et al.,
Defendants,
Okeiba Sadio, AKA Keys,
Defendant-Appellant.

I .

Appellant, pro se, moves for reconsideration of his motion for appointment of counsel, which this
4 Court construes as a motion for the appointment of counsel. Upon due consideration, it is hereby
ORDERED that the motion is DENIED and the appeal is DISMISSED because it “lacks an
arguable basis either in law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989); see also
28 U.S.C. § 1915(e).
*'
$
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case 19-3870, Document 22, 01/14/2020, 2751490, Pagel of 1
UNITED STATES COURT OF APPEALS
for the
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City of New York, on the 14th day of January, two thousand and
twenty.

ORDER
Docket Number: 19-3870

United States of America,
Appellee,
v.

Wilson A. Pena, AKA Wilson A. Pena-Villafana, AKA Twin, William
Yosel Pena, AKA Twin, AKA P.W., AKA William Yosel PenaVillafana, AKA Mello, Juan Alvarez, AKA Los, Jean Andre, Max
Antoine, Ramion Baker, AKA Ray Baker, Vincent Brown, AKA Big
Baby, Torrick Johnson, AKA Problem, Guiverson Joseph, AKA Teese,
Kelcey Joyner, Samuel Lee, AKA Slick, Terrance Lewis, AKA T-Lou,
Lut Muhammad, AKA Luke Muhammed, AKA Lut Billie, AKA Lut
Mohammad, Andre Spaulding, AKA Biscuit, Emmanuel Tyson, AKA
Petey, Tommy Garcia, AKA Gordo, Kerlin Jose HemandezEvangelista, AKA Manny, James Hill, AKA Jada, Kevin Sims, AKA
Ghost,
Defendants,

Okeiba Sadio, AKA Keys,
Defendant - Appellant.

A notice of appeal was filed on November 19, 2019. Appellant's Form B was due January 3, 2020. The case is
deemed in default.
IT IS HEREBY ORDERED that the appeal will be dismissed effective February 04, 2020 if the form is not filed
by that date.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

